No.
eee
IN THE SUPREME COURT OF THE UNITED STATES

ZACKIE THOMAS REED, IV,
Petitioner
v.
UNITED STATES OF AMERICA,

Respondent

See
PROOF OF SERVICE
a a Od

State of Texas )
County of Midland )
DEPOSITOR, being first duly sworn, deposes and says under oath:

That on September 21, 2021, the Motion for Leave to Proceed In Forma Pauperis, in the
above-entitled case, was deposited in a United States Post Office mail box located in Midland,
Midland County, Texas, with first class postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and within the time allowed for filing said Petition for Writ
of Certiorari;

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

Dated at Midland, Midland County, Texas, thjs 21 day of September, 2021.

    
  
 

Subscribed and Sworn to before me
this Z| ®day of September, 2021.

Go, Public, in and for the State of Texas

gah

Me Joanna Mandonado
~ My Commission Expires

% JAY 2 05/18/2024

Weise IDNo 128278751

, Steve Hershberger} Attorney

   

  

 
       
  

 
 
 

 
Respectfully submitted,

Steve Hershberger, Attorney at Law
600 No. Marienfeld St., Ste. 1035
Midland, TX 79701

432-570-4014

Attorney for Petitioner
